                                              EMPLOYMENT STANDARDS
                                              ADMINISTRATION

Office of Inspector General—Office of Audit




                                              DISTRICT OF COLUMBIA WORKMEN’S
                                              COMPENSATION ACT SPECIAL FUND
                                              FINANCIAL STATEMENTS AND
                                              INDEPENDENT AUDITORS’ REPORT
                                              September 30, 2006 and 2005




                                               This report was prepared by KPMG, LLP, under contract to the U.S.
                                               Department of Labor, Office of Inspector General, and by acceptance, it
                                               becomes a report of the Office of Inspector General.



                                                                                   __________________________
                                                                                    Assistant Inspector General for Audit




                                                                                  Date Issued: May 7, 2007
                                                                                  Report Number: 22-07-006-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                           DISTRICT OF COLUMBIA WORKMEN’S
                           COMPENSATION ACT SPECIAL FUND


                                      Table of Contents

                                                                                           Page
ACRONYMS                                                                                      ii
MANAGEMENT’S DISCUSSION AND ANALYSIS
    Mission and Organizational Structure                                                      1
    Financial Highlights                                                                      2
    Performance Goals and Results                                                             2
    Internal Controls and Systems                                                             3
    Known Risks and Uncertainties                                                             3
    Limitations of the Financial Statements                                                   4
INDEPENDENT AUDITORS’ REPORT                                                                  5
FINANCIAL STATEMENTS
    Balance Sheets                                                                           11
    Statements of Net Cost                                                                   12
    Statements of Changes in Net Position                                                    13
    Statements of Budgetary Resources                                                        14
    Statements of Financing                                                                  15
NOTES TO THE FINANCIAL STATEMENTS
    Note 1 – Summary of Significant Accounting Policies                                      17
    Note 2 – Funds with U.S. Treasury                                                        19
    Note 3 – Investments                                                                     20
    Note 4 – Accounts Receivable, Net                                                        21
    Note 5 – Other Liabilities                                                               22
    Note 6 – Statement of Budgetary Resources                                                23


i                                              U.S. Department of Labor—Office of Inspector General
                                                                   Report Number: 22-07-006-04-432
                                      District of Columbia Workmen’s Compensation Act Special Fund
                                                Financial Statements and Independent Auditors’ Report

                           DISTRICT OF COLUMBIA WORKMEN’S
                           COMPENSATION ACT SPECIAL FUND


                                            Acronyms



DCCA          District of Columbia Workmen’s Compensation Act Special Fund
DLHWC         Division of Longshore and Harbor Workers’ Compensation
DOL           Department of Labor
ESA           Employment Standards Administration
FY            Fiscal Year
LHWCA         Longshore Harbor Workers’ Compensation Act
OMB           Office of Management and Budget
OWCP          Office of Workers’ Compensation Programs
U.S.C.        United States Code




U.S. Department of Labor—Office of Inspector General                                               ii
Report Number: 22-07-006-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                        DISTRICT OF COLUMBIA WORKMEN’S
                        COMPENSATION ACT SPECIAL FUND
                         Management’s Discussion and Analysis
                              September 30, 2006 and 2005


Mission and Organizational Structure

Two Special Funds are administered by the Office of Workers’ Compensation Program
(OWCP) under section 44 of the Longshore Harbor Workers’ Compensation Act
(LHWCA); the Longshore Act Special Fund created under the original Act in 1927 and
the Special Fund under the District of Columbia Workmen’s Compensation Act of 1928
(DCCA). These Funds were established for the primary purpose of equitably distributing
among all employers the liabilities associated with second injury claims (a “second injury”
is an injury to a worker which, in combination with an existing permanent partial
impairment, results in the worker’s increased permanent disability or death).

Organizationally the DCCA Fund is administered by the Employment Standards
Administration (ESA) Division of Longshore and Harbor Workers’ Compensation program
(DLHWC) whose mission is to effectively administer a program of compensation and
medical benefits to cover workers who are injured on the job or suffer from occupational
disease. The DLHWC has direct responsibility for all aspects of the administration of the
Fund.

The Fund supports the program mission by providing compensation, and in certain
cases, medical care payments to District of Columbia employees for work related injuries
or death. Effective July 26, 1982, the District of Columbia became responsible for
administration and operation of a separate special fund to cover post July 26, 1982,
injury cases.

The DCCA provides medical benefits, compensation for lost-wages and rehabilitation
services for job-related injuries, diseases or death of certain private-sector workers in the
District of Columbia. Generally, benefits are paid directly from private funds by an
authorized self-insured employer or through an authorized insurance carrier. Cases
meeting the requirements of the Longshore and Harbor Workers’ Compensation statute
as extended to the District of Columbia Act of 1928 are paid from the Fund comprised
primarily of employer contributions (assessments) and administered by the DLHWC. In
fiscal year 2006 and 2005, 621 and 638 injured workers and their dependants received
compensation benefits from the Fund.

Additionally, the District of Columbia Workmen’s Compensation Act incorporates Section
10(h) of the LHWCA, which provides annual wage increase compensation (cost of living
adjustments). Fifty percent of this annual wage increase for pre-1972 compensation
cases is paid by Federal appropriated funds, and fifty percent is paid by the Fund through
the annual assessment. Appropriated funding for 10(h) is not reflected in the

1                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-07-006-04-432
                                 District of Columbia Workmen’s Compensation Act Special Fund
                                           Financial Statements and Independent Auditors’ Report

                         DISTRICT OF COLUMBIA WORKMEN’S
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2006 and 2005


accompanying financial statements. Appropriated funding is reflected in the Federal
Employees Compensation Act’s Special Benefits Fund.

Although the Fund is administered by the Secretary of Labor, the U.S. Treasury is the
Custodian, holding the funds in trust. The Fund is not property of the United States, but
can only be disbursed as specified in Section 44(i) of the Longshore Act. Administrative
services for operating the Fund are provided by the ESA through direct Federal
Appropriations. Appropriated funding for administrative services is not reflected in the
accompanying financial statements.

Financial Highlights
The majority of the revenue of the Fund is generated through annual recurring
assessments paid by self-insured employers and insurance carriers and totaled
$10,788,519 in fiscal year 2006. This compares with assessment revenue of
$11,427,419 for fiscal year 2005. In addition, investment income for the Fund was
$154,528 for fiscal year 2006 compared to $62,554 for fiscal year 2005. The average
interest rate earned during fiscal year 2006 was 4.61% compared to 2.50% for fiscal year
2005.

The Fund’s costs remained relatively stable compared to fiscal year 2005; $10,448,159
for fiscal year 2006 compared to $10,574,792 for fiscal year 2005. Proceeds of the Fund
are used for payments under: section 8(f) for second injury claims; section 10(h) for initial
and subsequent annual adjustments in compensation for permanent total disability or
related death from injuries which occurred prior to the effective date of the 1972 LHWCA
amendments; and section 18(b) for compensation to injured workers in cases of
employer default.

Performance Goals and Results
DCCA supports the Department of Labor’s Strategic Goal 4 – Strengthened Economic
Protections. This goal broadly promotes the economic security of workers and families. In
particular, the DCCA program supports Performance Goal 4B – Reduce the
Consequences of Work-Related Injuries. The Department of Labor plays a large role in
ensuring that worker benefits are protected and that employers administer benefit
programs in an appropriate way. The DCCA program assists in meeting this outcome
goal by establishing the long term performance goal of ensuring sufficient funds are
assessed to fund the annual payments, and by prompt payment to the beneficiaries.
These targets were achieved. The assessments were sufficient to cover the costs, and
no beneficiaries suffered a delayed payment.


U.S. Department of Labor—Office of Inspector General                                          2
Report Number: 22-07-006-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                         DISTRICT OF COLUMBIA WORKMEN’S
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2006 and 2005


Internal Controls and Systems

The Longshore and Harbor Workers’ Compensation Division’s Branch of Financial
Management and Insurance is a very small unit comprised of four employees and one
supervisor, all working in very close proximity to each other. Much of the oversight,
evaluation, monitoring, and control and almost all of the supervisory activity is informal,
done on a face-to-face basis. Similarly, each of the district offices is in itself a small unit,
operating in the same fashion as the Branch of Financial Management and Insurance.

Cases paid by the Special Fund are paid as a result of a formal Compensation Order
issued by a District Director or Administrative Law Judge, setting forth precisely what
payment is due and to whom the payment is due. Each new case coming in for Special
Fund payment is prepared and reviewed by a total of five different employees before
payment is made, thus ensuring accuracy.

Monthly cash statements, monthly case management reports, quarterly review
processes, biweekly payment summaries, the SF-224 report and statement of
differences all provide current, reliable, and accurate information.

Management communicates all procedural, policy, and operating goals to staff by means
of weekly staff meetings, a written procedure manual, frequent e-mail communication,
and frequent individual communications regarding changes, problems and issues.

Known Risks and Uncertainties

The DCCA Fund is assessed one year at a time for current expenses; there is no reserve
for future Fund obligations. In keeping with the requirement of section 44 of the
Longshore Act, obligations are paid as they are incurred. Assessments are based on
compensation and medical benefits paid in the prior calendar year. The District of
Columbia Workmen’s Compensation Act of 1928 has been repealed and the DC Special
Fund only assesses based on payments in cases that arose prior to July 26, 1982, the
annual Special Fund assessment is assessed against a shrinking base of industry
payments. These payments are concentrated among a relatively few insurance carriers
and self insured employers. For example, the largest nine insurance carriers and self-
insured employers alone fund over 63% of the District of Columbia assessments. If one
or more of the largest payers became insolvent and was unable to pay their assessment
obligations, temporary collection issues would result, necessitating special, unscheduled
assessments or other actions to keep the Special Fund funded for current liabilities.


3                                          U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-006-04-432
                                 District of Columbia Workmen’s Compensation Act Special Fund
                                           Financial Statements and Independent Auditors’ Report

                         DISTRICT OF COLUMBIA WORKMEN’S
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2006 and 2005


One insurance company group is currently insolvent and is being operated by the State
of Illinois Insurance Department. The group is responsible for nearly 20% of the total
District of Columbia assessments. If these carriers go into liquidation and stop paying
their assessments, this would precipitate a collection crisis for the District of Columbia
assessment.
Limitations of the Financial Statements

The following limitations are part of the financial statements:
• The financial statements have been prepared to report the financial position and
  results of operations of the entity, pursuant to the requirements of the Chief Financial
  Officers Act of 1990, U.S.C. 3515 (b).
•   While the statements have been prepared from the books and records of the Fund in
    accordance with the formats prescribed by OMB, the statements are different from the
    financial reports used to monitor and control budgetary resources which are prepared
    from the same books and records.
•   The statements should be read with the realization that they are for a component of
    the U.S. Government, a sovereign entity, that liabilities cannot be liquidated without
    the enactment of an appropriation, and that the payment of all liabilities other than for
    contracts can be abrogated by the sovereign entity.




U.S. Department of Labor—Office of Inspector General                                          4
Report Number: 22-07-006-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report



                          KPMG LLP
                          2001 M Street, NW
                          Washington, DC 20036




                          Independent Auditors’ Report

Ms. Victoria Lipnic, Assistant Secretary
Employment Standards Administration
U.S. Department of Labor

We have audited the accompanying balance sheet of the U.S. Department of
Labor’s (DOL) District of Columbia Workmen’s Compensation Act Special Fund
(the Fund), as of September 30, 2006, and the related statements of net cost,
changes in net position, financing, and budgetary resources (hereinafter referred
to as “financial statements”) for the year then ended. The objective of our audit
was to express an opinion on the fair presentation of these financial statements.
In connection with our fiscal year 2006 audit, we also considered the Fund’s
internal controls over financial reporting and performance measures, and tested
the Fund’s compliance with certain provisions of applicable laws and regulations
that could have a direct and material effect on these financial statements. The
accompanying financial statements of the Fund as of and for the year ended
September 30, 2005, were audited by other auditors whose report thereon, dated
July 10, 2006, expressed an unqualified opinion on those consolidated financial
statements.

SUMMARY

As stated in our opinion on the financial statements, we concluded that the
Fund’s financial statements as of and for the year ended September 30, 2006,
are presented fairly, in all material respects, in conformity with U.S. generally
accepted accounting principles.

Our consideration of internal controls over financial reporting and performance
measures would not necessarily disclose all matters in the internal control that
might be material weaknesses as defined in the Internal Control Over Financial
Reporting and Internal Controls Over Performance Measures sections of this
report. However, we noted no matters involving the internal control and its
operation that we considered to be material weaknesses as defined in this report.

The results of our tests of compliance with certain provisions of laws and
regulations disclosed no instances of noncompliance or other matters that are
required to be reported herein under Government Auditing Standards, issued by
the Comptroller General of the United States, and Office of Management and

5                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-07-006-04-432

                          KPMG LLP, a U.S. limited liability partnership, is the U.S.
                          member firm of KPMG International, a Swiss cooperative.
                        District of Columbia Workmen’s Compensation Act Special Fund
                                  Financial Statements and Independent Auditors’ Report




Budget (OMB) Bulletin No. 06-03, Audit Requirements for Federal Financial
Statements.

The following sections discuss our opinion on the Fund’s financial statements;
our consideration of the Fund’s internal controls over financial reporting and
performance measures; our tests of the Fund’s compliance with certain
provisions of applicable laws and regulations; and management’s and our
responsibilities.

OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying balance sheet of the U.S. Department of
Labor’s District of Columbia Workmen’s Compensation Act Special Fund as of
September 30, 2006, and the related statements of net cost, changes in net
position, financing, and the statement of budgetary resources for the year then
ended. The accompanying financial statements of the Fund as of and for the year
ended September 30, 2005, were audited by other auditors whose report thereon,
dated July 10, 2006, expressed an unqualified opinion on those financial
statements.

In our opinion, the financial statements referred to above present fairly, in all
material respects, the financial position of the U.S. Department of Labor’s District
of Columbia Workmen’s Compensation Act Special Fund as of September 30,
2006, and its net costs, changes in net position, budgetary resources, and
reconciliation of net costs to budgetary obligations for the year then ended, in
conformity with U.S. generally accepted accounting principles.

The information in the Management Discussion and Analysis is not a required
part of the financial statements, but is supplementary information required by
U.S. generally accepted accounting principles and OMB Circular No. A-136,
Financial Reporting Requirements. We have applied certain limited procedures,
which consisted principally of inquiries of management regarding the methods of
measurement and presentation of this information. However, we did not audit
this information and, accordingly, we express no opinion on it.

INTERNAL CONTROL OVER FINANCIAL REPORTING

Our consideration of the internal control over financial reporting would not
necessarily disclose all matters in the internal control over financial reporting that
might be material weaknesses under standards issued by the American Institute
of Certified Public Accountants. Material weaknesses are reportable conditions in
which the design or operation of one or more of the internal control components
does not reduce to a relatively low level the risk that misstatements caused by


U.S. Department of Labor—Office of Inspector General                                 6
Report Number: 22-07-006-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report




error or fraud in amounts that would be material in relation to the financial
statements being audited may occur and not be detected within a timely period
by employees in the normal course of performing their assigned functions.

Because of inherent limitations in internal controls, misstatements due to error or
fraud may nevertheless occur and not be detected. However, we noted no
matters involving the internal controls over financial reporting and its operation
that we considered to be material weaknesses as defined above.

INTERNAL CONTROLS OVER PERFORMANCE MEASURES
Under OMB Bulletin No. 06-03, the definition of material weaknesses is extended
to other controls as follows. Material weaknesses are reportable conditions in
which the design or operation of one or more of the internal control components
does not reduce to a relatively low level the risk that misstatements caused by
error or fraud, in amounts that would be material to a performance measure or
aggregation of related performance measures, may occur and not be detected
within a timely period by employees in the normal course of performing their
assigned functions.      Because of inherent limitations in internal control,
misstatements due to error or fraud may nevertheless occur and not be detected.

In our fiscal year 2006 audit, we noted no matters involving the design and
operation of the internal control over the existence and completeness assertions
related to key performance measures that we considered to be material
weaknesses as defined above.

COMPLIANCE AND OTHER MATTERS

The results of our tests of compliance described in the Responsibilities section of
this report disclosed no instances of noncompliance or other matters that are
required to be reported herein under Government Auditing Standards and OMB
Bulletin No. 06-03.

                                     * * * * *

RESPONSIBILITIES

Management’s Responsibilities. Management is responsible for the financial
statements, including:

•   Preparing the financial statements in conformity with U.S. generally accepted
    accounting principles;



7                                 U.S. Department of Labor—Office of Inspector General
                                                      Report Number: 22-07-006-04-432
                          District of Columbia Workmen’s Compensation Act Special Fund
                                    Financial Statements and Independent Auditors’ Report




•   Preparing the Management            Discussion     and   Analysis   (including   the
    performance measures);

•   Establishing and maintaining effective internal control; and

•   Complying with laws, regulations, contracts, and grant agreements applicable
    to the Fund.

In fulfilling this responsibility, management is required to make estimates and
judgments to assess the expected benefits and related costs of internal control
policies.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the
fiscal year 2006 financial statements of the Fund based on our audit. We
conducted our audit in accordance with auditing standards generally accepted in
the United States of America; the standards applicable to financial audit
contained in Government Auditing Standards, issued by the Comptroller General
of the United States; and OMB Bulletin No. 06-03. Those standards and OMB
Bulletin No. 06-03 require that we plan and perform the audit to obtain
reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the
effectiveness of the Fund’s internal control over financial reporting. Accordingly,
we express no such opinion.

An audit also includes:

•   Examining, on a test basis, evidence supporting the amounts and disclosures
    in the financial statements;

•   Assessing the accounting principles used and significant estimates made by
    management; and

•   Evaluating the overall financial statement presentation.

We believe that our audit provides a reasonable basis for our opinion.

In planning and performing our fiscal year 2006 audit, we considered the Fund’s
internal control over financial reporting by obtaining an understanding of the
Fund’s internal control, determining whether internal controls had been placed in
operation, assessing control risk, and performing tests of controls in order to
determine our auditing procedures for the purpose of expressing our opinion on
the financial statements. We limited our internal control testing to those controls

U.S. Department of Labor—Office of Inspector General                                   8
Report Number: 22-07-006-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report




necessary to achieve the objectives described in Government Auditing Standards
and OMB Bulletin No. 06-03. We did not test all internal controls relevant to

operating objectives as broadly defined by the Federal Managers’ Financial
Integrity Act of 1982. The objective of our audit was not to provide an opinion on

the Fund’s internal control over financial reporting. Consequently, we do not
provide an opinion thereon.

As further required by OMB Bulletin No. 06-03, in our fiscal year 2006 audit, with
respect to internal control related to performance measures determined by
management to be key and reported in the Management Discussion and
Analysis section, we obtained an understanding of the design of internal controls
relating to the existence and completeness assertions and determined whether
these internal controls had been placed in operation. We limited our testing to
those controls necessary to test and report on the internal control over key
performance measures in accordance with OMB Bulletin

No. 06-03. However, our procedures were not designed to provide an opinion on
internal control over reported performance measures and, accordingly, we do not
provide an opinion thereon.

As part of obtaining reasonable assurance about whether the Fund’s fiscal year
2006 financial statements are free of material misstatement, we performed tests
of the Fund’s compliance with certain provisions of laws and regulations,
noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts. We limited our tests of
compliance to the provisions described in the preceding sentence, and we did
not test compliance with all laws and regulations applicable to the Fund.
However, providing an opinion on compliance with laws and regulations was not
an objective of our audit and, accordingly, we do not express such an opinion.

RESTRICTED USE
This report is intended solely for the information and use of the United States
Department of Labor’s management, Office of Inspector General, OMB, the U.S.
Government Accountability Office, and the U.S. Congress, and is not intended to
be and should not be used by anyone other than these specified parties.



March 30, 2007



9                                U.S. Department of Labor—Office of Inspector General
                                                      Report Number: 22-07-006-04-432
                                 District of Columbia Workmen’s Compensation Act Special Fund
                                           Financial Statements and Independent Auditors’ Report




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                        10
Report Number: 22-07-006-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report



                            DISTRICT OF COLUMBIA WORKMEN'S
                            COMPENSATION ACT SPECIAL FUND
                                         Balance Sheets
                                 September 30, 2006 and 2005


                         Assets                                        2006              2005
Intra-governmental assets:
   Funds with U.S. Treasury (Note 2)                            $      75,967         2,066,020
   Investments (Note 3)                                             5,611,000         3,000,000
   Accounts receivable (Note 4)                                           784                —
            Total intra-governmental assets                         5,687,751         5,066,020
Accounts receivable, net of allowance (Note 4)                        411,594           384,027
           Total assets                                         $   6,099,345         5,450,047
                Liabilities and Net Position
Liabilities:
  Accrued benefits payable                                      $     282,571           251,997
  Deferred revenue                                                  2,633,150         2,783,452
  Other liabilities (note 5)                                          746,086           471,948
            Total liabilities                                       3,661,807         3,507,397
Net position:
  Cumulative results of operations                                  2,437,538         1,942,650
            Total liabilities and net position                  $   6,099,345         5,450,047


See accompanying notes to financial statements.




11                                               U.S. Department of Labor—Office of Inspector General
                                                                     Report Number: 22-07-006-04-432
                                       District of Columbia Workmen’s Compensation Act Special Fund
                                                 Financial Statements and Independent Auditors’ Report



                           DISTRICT OF COLUMBIA WORKMEN'S
                           COMPENSATION ACT SPECIAL FUND
                                      Statements of Net Cost
                            Years ended September 30, 2006 and 2005


                                                                       2006               2005
Special fund net cost of operations:
    Second injury compensation, Section 8(f)                    $    9,620,081          9,787,312
    Wage increase compensation, Section 10(h)                          588,473            598,929
    Compensation payment for self-insurer in default,
        Section 18(b)                                                  239,605            188,551
             Net cost of operations                             $   10,448,159        10,574,792


See accompanying notes to financial statements.




U.S. Department of Labor—Office of Inspector General                                                12
Report Number: 22-07-006-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report



                            DISTRICT OF COLUMBIA WORKMEN'S
                            COMPENSATION ACT SPECIAL FUND
                             Statements of Changes in Net Position
                           Years ended September 30, 2006 and 2005


                                                                     2006                2005
Cumulative results of operations, beginning                    $    1,942,650          1,027,469
Budgetary financing sources:
  Non-exchange revenues:
    Investment interest                                               154,528            62,554
    Assessments                                                    10,788,519        11,427,419
            Total non-exchange revenues                            10,943,047        11,489,973
Net cost of operations                                           (10,448,159)       (10,574,792)
            Net position, end of period                        $   2,437,538          1,942,650
See accompanying notes to financial statements.
         Net position, end of period                           $    4,380,188          2,970,119


See accompanying notes to financial statements.




13                                             U.S. Department of Labor—Office of Inspector General
                                                                   Report Number: 22-07-006-04-432
                                       District of Columbia Workmen’s Compensation Act Special Fund
                                                 Financial Statements and Independent Auditors’ Report



                             DISTRICT OF COLUMBIA WORKMEN'S
                             COMPENSATION ACT SPECIAL FUND
                                Statements of Budgetary Resources
                            Years ended September 30, 2006 and 2005


                                                                       2006                 2005
Budgetary resources:
  Unobligated balance, brought forward                        $      4,815,948             4,719,538
  Budget authority
    Appropriations received (assessments)                           10,867,049           10,674,005
           Total budgetary resources                          $     15,682,997           15,393,543
Status of budgetary resources:
  Obligations incurred (Note 6)
     Direct                                                   $     10,153,891           10,577,595
  Unobligated balances - available:
     Other available - exempt from apportionment                     5,529,106            4,815,948
            Total status of budgetary resources               $     15,682,997           15,393,543
Change in obligated balance:
  Obligated balance , net
    Unpaid obligations, brought forward, October 1            $        251,997              282,550
  Obliations incurred, net                                          10,153,891           10,577,595
  Less: Gross Outlays                                              (10,246,101)         (10,608,148)
  Obligated balance, net, end of period
    Unpaid obligations                                        $        159,787               251,997
Outlays:
 Gross Outlays                                                $     10,246,101           10,608,148
 Net outlays                                                  $     10,246,101           10,608,148


See accompanying notes to financial statements.




U.S. Department of Labor—Office of Inspector General                                               14
Report Number: 22-07-006-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report



                            DISTRICT OF COLUMBIA WORKMEN'S
                            COMPENSATION ACT SPECIAL FUND
                                     Statements of Financing
                           Years ended September 30, 2006 and 2005


                                                                       2006               2005
Obligations incurred                                           $   10,153,891         10,577,595
            Total resources used to finance activities             10,153,891         10,577,595
Resources used to finance items not part of the
  net cost of operations
  Resources that finance the acquisition of assets                     (10,522)                —
            Total resources used to finance items
              not part of the net cost of operations                   (10,522)                —
            Total Resources used to finance the
              net cost of operations                               10,143,369         10,577,595
Components not requiring or generating resources:
  Revaluation of assets and liabilities                                 5,284              (6,469)
  Other                                                               299,506               3,666
            Total components of net cost of operations
              that will not require or generate resources             304,790              (2,803)
                 in the current period
            Net cost of operations                             $   10,448,159         10,574,792


See accompanying notes to financial statements.




15                                             U.S. Department of Labor—Office of Inspector General
                                                                   Report Number: 22-07-006-04-432
                                 District of Columbia Workmen’s Compensation Act Special Fund
                                           Financial Statements and Independent Auditors’ Report




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                        16
Report Number: 22-07-006-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                             DISTRICT OF COLUMBIA WORKMEN’S
                             COMPENSATION ACT SPECIAL FUND
                                 Notes to the Financial Statements
                                   September 30, 2006 and 2005


 (1)    Summary of Significant Accounting Policies
       The principal accounting policies which have been followed by the Fund in preparing the
       accompanying financial statements are set forth below.
       (a)   Reporting Entity
             These financial statements present the financial position, net cost of operations,
             changes in net position, budgetary resources and financing activities of the District
             of Columbia Workmen’s Compensation Act Special Fund (Fund). The Fund is
             administered by the Employment Standards Administration (ESA) which is an
             agency within the United States Department of Labor. Within ESA, the Division of
             Longshore and Harbor Workers’ Compensation has direct responsibility for
             administration of the Fund. The Fund offers compensation, and in certain cases,
             medical care payments to District of Columbia employees for work related injuries
             or death. Effective July 26, 1982, the District of Columbia Workmen’s Compensation
             Act was amended whereby the Mayor of the District of Columbia became
             responsible for administration and operation of a separate special fund to cover post
             July 26, 1982, injury cases.
             Additionally, the District of Columbia Workmen’s Compensation Act Section 10(h)
             provides annual wage increase compensation (cost of living adjustments). Fifty
             percent of this annual wage increase for pre-1972 compensation cases is paid by
             Federal appropriated funds and fifty percent is paid by the Fund through the annual
             assessment. Appropriated funding for 10(h) is not reflected in the accompanying
             financial statements. Appropriated funding is reflected in the Federal Employees
             Compensation Act’s Special Benefit Fund. Also, these financial statements do not
             include the Special Fund administered by the Mayor of the District of Columbia for
             injury cases occurring after July 26, 1982.
       (b)   Basis of Accounting and Presentation
             These financial statements present the financial position, net cost of operations,
             changes in net position, budgetary resources and financing activities of the Fund, in
             accordance with U.S. generally accepted accounting principles and the form and
             content requirements of OMB Circular A-136. These financial statements have been
             prepared from the books and records of the Fund. These financial statements are
             not intended to present, and do not present, the full cost of the District of Columbia
             Workmen’s Compensation (DCCA) program administered under the Longshore and
             Harbor Workers’ Compensation Act Program (Longshore Program). In addition to
             the Fund costs presented in these statements, the full cost of the DCCA portion of

17                                              U.S. Department of Labor—Office of Inspector General
                                                                     Report Number: 22-07-006-04-432
                                      District of Columbia Workmen’s Compensation Act Special Fund
                                                Financial Statements and Independent Auditors’ Report

                           DISTRICT OF COLUMBIA WORKMEN’S
                           COMPENSATION ACT SPECIAL FUND
                                Notes to the Financial Statements
                                 September 30, 2006 and 2005


           the Longshore Program would include certain direct costs of ESA in the form of
           salaries and expenses for administration of the Longshore Program and allocated
           costs of ESA and other DOL agencies incurred in support of the Longshore
           Program. The full cost of the DCCA portion of the Longshore Program is included in
           the Consolidated Financial Statements of the U.S. Department of Labor.
           U.S. generally accepted accounting principles encompass both accrual and
           budgetary transactions. Under accrual accounting, revenues are recognized when
           earned, and expenses are recognized whena liability is incurred. Budgetary
           accounting facilitates compliance with legal constraints on, and controls over, the
           use of federal funds. These financial statements are different from the financial
           reports, also prepared for the Fund pursuant to OMB directives, used to monitor the
           Fund’s use of budgetary resources.
     (c)   Funds with U.S. Treasury
           The Fund does not maintain cash in commercial bank accounts. Cash receipts and
           disbursements are processed by the U.S. Treasury. The Funds with U.S. Treasury
           are trust funds that are available to pay current liabilities and finance authorized
           purchase commitments.
     (d)   Investments
           Investments in U.S. Government securities are reported at cost, net of unamortized
           premiums or discounts, which approximates market value. Premiums or discounts
           are amortized on a straight-line basis, which approximates the effective interest
           method. The Fund’s intent is to hold investments to maturity, unless they are
           needed to finance claims or otherwise sustain the operations of the Fund. No
           provision is made for unrealized gains or losses on these securities because, in the
           majority of cases, they are held to maturity.
     (e)   Accounts Receivable, Net of Allowance
           The amounts due as receivables are stated net of an allowance for uncollectible
           accounts. The allowance is estimated based on past experience in the collection of
           the receivables and an analysis of the outstanding balances. Also included as
           benefit overpayments receivable are Fund overpayments to beneficiaries made to
           individuals primarily from awarded compensation orders and corrections of payment
           computations.



U.S. Department of Labor—Office of Inspector General                                              18
Report Number: 22-07-006-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                             DISTRICT OF COLUMBIA WORKMEN’S
                             COMPENSATION ACT SPECIAL FUND
                                 Notes to the Financial Statements
                                  September 30, 2006 and 2005


       (f)   Accrued Benefits Payable
             The District of Columbia Workmen’s Compensation Special Fund provides
             compensation and medical benefits for pre-July 26, 1982, work related injuries to
             employees of the District of Columbia. The Fund recognizes a liability for disability
             benefits payable to the extent of unpaid benefits applicable to the current period.
       (g)   Assessment Overpayment by Carriers
             Assessment overpayments are current liabilities and are to be refunded upon
             insurance carrier or self-insured employer’s request or applied to reduce future
             assessments.
       (h)   Deferred Revenue
             Deferred revenues represent the unearned assessment revenues as of
             September 30, the Fund’s accounting year end. The annual assessments cover a
             calendar year and, accordingly, the portion extending beyond September 30 has
             been deferred.
       (i)   Financing Sources Other Than Exchange Revenue
             Non-exchange revenues arise from the Federal government’s power to demand
             payments from and receive donations from the public. Non-exchange revenues are
             recognized by the Fund for assessments levied against the public and interest
             income from investments.
             The Fund’s primary source of revenue is annual assessments levied on insurance
             carriers and self-insured employers. The Fund also receives interest on Fund
             investments and on Federal funds in the possession of non-Federal entities.
 (2)    Funds with U.S. Treasury
       Funds with U.S. Treasury at September 30, 2006 and 2005 consisted of cash deposits of
       $75,967 and $2,066,020 respectively. There was $47 in cash deposits at September 30,
       2006 and $408 in cash deposits at September 30, 2005 being held as security by
       authority of Section 32 of the Longshore and Harbor Workers’ Compensation Act in the
       Funds with U.S. Treasury balance. Section 32 funds relate to the default of self-insured
       employers and are available for payment of compensation and medical benefits to
       covered employees of the defaulted companies.



19                                              U.S. Department of Labor—Office of Inspector General
                                                                     Report Number: 22-07-006-04-432
                                                District of Columbia Workmen’s Compensation Act Special Fund
                                                          Financial Statements and Independent Auditors’ Report

                               DISTRICT OF COLUMBIA WORKMEN’S
                               COMPENSATION ACT SPECIAL FUND
                                     Notes to the Financial Statements
                                       September 30, 2006 and 2005


       Funds with U.S. Treasury at September 30, 2006 consisted of the following:
                                                         Entity Assets
                                  Unobligated     Unobligated     Obligated
                                   Balance         Balance       Balance Not    Total            Non-entity
                                   Available      Unavailable Yet Disbursed Entity Assets         Assets           Total

       Special Fund           $             —               —         75,967         75,967                —         75,967



       Funds with U.S. Treasury at September 30, 2005 consisted of the following:
                                                       Entity Assets
                              Unobligated       Unobligated     Obligated
                               Balance           Balance       Balance Not    Total           Non-entity
                               Available        Unavailable Yet Disbursed Entity Assets        Assets           Total

 Special Fund             $            —                —       2,066,020      2,066,020             —         2,066,020


 (3)    Investments
       Investments at September 30, 2006 and 2005 consisted of the following:
                                                                       September 30, 2006
                                                    Face                Net        Market
                                                    Value            Discount       Value                         Value
       Intragovernmental securities:
          Marketable                        $ 5,611,000                        —           5,611,000           5,611,000


                                                                       September 30, 2005
                                                    Face                Net        Market
                                                    Value            Discount       Value                         Value
       Intragovernmental securities:
          Marketable                        $ 3,000,000                        —           3,000,000           3,000,000


       Investments of $54,100 and $51,300 at September 30, 2006 and 2005, respectively are
       being held as security by authority of Section 32 of the Longshore and Harbor Workers’
       Compensation. Section 32 investments relate to the default of self-insured employers
       and are restricted. These investments are available for payment of compensation and
       medical benefits to covered employees of the defaulted companies. Investments at
       September 30, 2006 and 2005 consist of overnight securities and short-term U.S.
       Treasury Bills stated at amortized cost, which approximates market. Investments at
       September 30, 2006, bear an interest rate of 5.03 % compared to rates varying from

U.S. Department of Labor—Office of Inspector General                                                                          20
Report Number: 22-07-006-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                                 DISTRICT OF COLUMBIA WORKMEN’S
                                 COMPENSATION ACT SPECIAL FUND
                                      Notes to the Financial Statements
                                        September 30, 2006 and 2005


       1.32% to 3.67% for 2005. Interest rates on securities bought and sold during fiscal year
       2006 ranged from 3.46% to 5.30% compared to 1.32% to 3.67% for fiscal year 2005.
 (4)    Accounts Receivable, Net
       Accounts receivable at September 30, 2006 and 2005 consisted of the following:
                                                                                  2006               2005
       Entity assets:
       Intragovernmental:
          Interest Receivable                                           $            784                  —
             Total Intragovernmental accounts receivable                $            784                  —

         Benefit overpayments                                           $       56,433                15,584
         Assessments receivable                                                492,358               496,452
         Less: allowance for doubtful accounts                                (137,197)             (128,009)
           Total accounts receivable from the public, net               $      411,594               384,027

       Assessments receivable represent the unpaid annual assessments from the current and
       prior years. Accounts receivable from overpayments to claimants arise primarily from
       amended compensation orders and corrections of payment computations. These
       receivables are being primarily recovered by partial and total withholding of benefit
       payments.
       Changes in the allowance for doubtful accounts during fiscal year 2006 and fiscal year
       2005 consisted of the following:
                                                                          2006
                                       Allowance         Write        Revenue                           Allowance
                                     October 1, 2005     Offs        Adjustment      Bad Debt       September 30, 2006

       Entity assets:
         Benefit overpayments    $           (3,896)             —          —            (10,212)                (14,108)
         Assessment receivable             (124,113)             —          —              1,024                (123,089)

                                 $         (128,009)             —          —             (9,188)               (137,197)




21                                                     U.S. Department of Labor—Office of Inspector General
                                                                            Report Number: 22-07-006-04-432
                                                  District of Columbia Workmen’s Compensation Act Special Fund
                                                            Financial Statements and Independent Auditors’ Report

                                  DISTRICT OF COLUMBIA WORKMEN’S
                                  COMPENSATION ACT SPECIAL FUND
                                         Notes to the Financial Statements
                                           September 30, 2006 and 2005

                                                                                   2005
                                          Allowance           Write            Revenue                         Allowance
                                        October 1, 2004       Offs            Adjustment     Bad Debt      September 30, 2005

       Entity assets:
         Benefit overpayments      $              (4,812)             —               —            916                (3,896)
         Assessment receivable                   (95,811)             —          (21,255)       (7,047)             (124,113)

                                    $           (100,623)             —          (21,255)       (6,131)             (128,009)



 (5)    Other Liabilities
       Other liabilities at September 30, 2006 and 2005 consisted of the following current
       liabilities:
                                                                                   2006                 2005
       Other liabilities:
         Assessment overpayments by carriers                              $        691,939              420,240
         Defaulted employer liability:
           Held in investments                                                      54,100               51,300
           Held in cash                                                                 47                  408
                                                                                    54,147               51,708
                      Total other liabilities                             $        746,086              471,948


       Assessment overpayments are to be refunded upon request or applied to reduce future
       assessments.
       Defaulted employer liability relates to the funds and investments held by the District of
       Columbia Special Fund which are being held as security by authority of Section 32 of the
       Act. These funds and investments are available for compensation and medical benefits
       to covered employees of the defaulted companies. Management estimates that these
       funds and investments held will be sufficient to cover the future benefits associated with
       the covered employees.




U.S. Department of Labor—Office of Inspector General                                                                 22
Report Number: 22-07-006-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                             DISTRICT OF COLUMBIA WORKMEN’S
                             COMPENSATION ACT SPECIAL FUND
                                     Notes to the Financial Statements
                                      September 30, 2006 and 2005


 (6)    Statement of Budgetary Resources
       (a)   Apportionment Categories of Obligations Incurred
             Obligations incurred reported on the Statement of Budgetary Resources in FY 2006
             and FY 2005 consisted of the following:
                                                                            2006             2005
             Direct Obligations:
                Exempt from apportionment                          $    10,153,891         10,577,595


       (b)   Explanation of Differences Between the Statement of Budgetary Resources
             and the Budget of the United States Government
             A reconciliation of budgetary resources, obligations incurred and outlays, as
             presented in the Statement of Budgetary Resources to amounts included in the
             Budget of the United States Government for the year ended September 30, 2005 is
             shown below:
                                                                               2005
                                                              Budgetary      Obligations
             (Dollars in Millions)                            Resources       Incurred       Outlays
             Statement of Budgetary Resources             $            15            11             11

               Longshore and Harbor Workers Compensatio            203               133         132

             Budget of the United States Government       $        218               144         143




23                                                 U.S. Department of Labor—Office of Inspector General
                                                                        Report Number: 22-07-006-04-432
